No. ______
In the

Supreme Court of the United States
__________________
HO WONG JEONG,
v.

Petitioner,

ANGEL CABRERA; S. DAVID WU; KEVIN AVRUCH,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
RICHARD F. HAWKINS, III
Counsel of Record
THE HAWKINS LAW FIRM, PC
2222 Monument Ave.
Richmond, VA 23220
(804) 308-3040 (telephone)
(804) 308-3132 (fax)
rhawkins@thehawkinslawfirm.net
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Did the district court act contrary to this Court’s
precedents in Haines v. Kerner, 404 U.S. 519, 521
(1972) and Erickson v. Pardus, 551 U.S. 89, 94 (2007)
when it denied appellant’s pro se Rule 60(b)(3) motion
on the grounds of untimeliness without holding oral
argument to inquire into the reasons that appellant
waited a bit more than eleven months to file the
motion?

ii
PARTIES TO THE PROCEEDINGS
Petitioner, plaintiff-appellant below, is Ho Won
Jeong.
Respondents, defendants-appellees below, are Angel
Cabrera; S. David Wu; and Kevin Avruch.
STATEMENT OF RELATED PROCEEDINGS
• Jeong v. Cabrera, et al.; No. 19-1882 (4th Cir.)
(opinion issued and judgment entered on March
25, 2020; petition for panel rehearing and
rehearing en banc denied May 11, 2020;
mandate issued May 19, 2020).
• Jeong v. Cabrera, et al.; 1:18cv (E.D. Va.) (order
denying Rule 60(b)(3) motion entered July 17,
2019).
There are no additional proceedings in any court
that are directly related to this case.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULE OF CIVIL PROCEDURE INVOLVED . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . 4
I. Factual Background Of Jeong I . . . . . . . . . . . . . . 4
A. Jeong’s Longstanding Tenure at GMU. . . . . . 4
B. Post-Tenure Review And Jeong’s Grievance
Of Same . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
C. The Post-Tenure Review Committee
Recommends Either Reassignment Or
Sanctions Against Jeong, But NOT
Termination . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
D. Jeong Then Files Suit Against GMU
(Jeong I) And The Post-Tenure Review
Committee Changes Its Recommendation
From “Sanctions” To “Termination” . . . . . . . . 6

iv
E. Jeong I Is Dismissed And GMU Fires Jeong
Just Days Later . . . . . . . . . . . . . . . . . . . . . . . . 7
II. Relevant Procedural History: Jeong II . . . . . . . . 8
A. Appellees Move To Dismiss Jeong II And As
Part Of Their Dismissal Efforts, They
Greatly Minimize The August 5, 2016 PostTenure Committee Report. . . . . . . . . . . . . . . . 8
B. The District Court Dismisses Jeong II, In
Part, Based On The Alleged Lack Of Value
Of The August 5, 2016 Report . . . . . . . . . . . 11
C. Jeong, Now Pro Se, Files His Rule 60(b)(3)
Motion And Submits Documentation That
Shows That The August 5, 2016 Report Was
Not A Mere Draft But Instead Was A Report
That Was Intentionally Changed After Jeong
Filed Jeong I . . . . . . . . . . . . . . . . . . . . . . . . . 11
D. Without A Hearing And Without Ever
Hearing From Jeong In Person, The District
Court Denied Jeong’s Rule 60 Motion As
Untimely . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
E. Jeong Appeals The District Court’s Denial Of
His Rule 60(b)(3) Motion, But The Fourth
Circuit Affirms The Denial . . . . . . . . . . . . . . 16
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . 17
I. This Court Should Grant Certiorari Because
The Decisions Below Conflict With
This Court’s Precedents In Haines And
Erickson . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

v
A. This Court’s Precedents Showing The Federal
Judicial System’s Longstanding Latitude
When Dealing With Pro Se Litigants . . . . . . 18
B. The District Court Failed To Abide By This
Court’s Precedents in Haines And Erickson,
And Thus Abused Its Discretion When,
Without A Hearing, It Denied Jeong’s Pro Se
Rule 60(b)(3) Motion On The Ground Of
Untimeliness . . . . . . . . . . . . . . . . . . . . . . . . . 19
II. This Case Is An Ideal Vehicle To Resolve The
Question Presented. . . . . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fourth Circuit
(March 25, 2020) . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Eastern District of
Virginia Alexandria Division
(July 17, 2019). . . . . . . . . . . . . . . . App. 5
Appendix C Order in the United States District
Court for the Eastern District of
Virginia Alexandria Division
(July 13, 2018). . . . . . . . . . . . . . . App. 8
Appendix D Order Denying Rehearing and
Rehearing en banc in the United
States Court of Appeals for the Fourth
Circuit
(May 11, 2020). . . . . . . . . . . . . . . App. 10

vi
TABLE OF AUTHORITIES
CASES
Bankers Mortgage Co. v. U.S.,
423 F.2d 73 (5th Cir. 1970). . . . . . . . . . . . . . . . . 17
Beal v. Foster,
803 F.3d 356 (7th Cir. 2015). . . . . . . . . . . . . . . . 21
Beaudett v. City of Hampton,
775 F.2d 1274 (4th Cir. 1985). . . . . . . . . . . . . 2, 18
Boughner v. Secretary of Health, Ed. & Welf., U.S.,
572 F.2d 976 (3d Cir. 1978) . . . . . . . . . . . . . . . . 17
Compton v. Alton S.S. Co., Inc.,
608 F.2d 96 (4th Cir. 1979). . . . . . . . . . . . . . . . . 17
Erickson v. Pardus,
551 U.S. 89 (2007). . . . . . . . . . . . . . . . . . . . passim
Estate of Grieco v. National Medical
Consultants, P.C., 2018 WL 4562405
(D.N.J. Sept. 24, 2018) . . . . . . . . . . . . . . . . . . . . 21
Gee v. Pacheco,
495 Fed.Appx 942 (10th Cir. Aug. 31, 2012) . . . . 2
Gordon v. Leeke,
574 F.2d 1147 (4th Cir.), cert. denied,
439 U.S. 970, 99 S.Ct. 464,
58 L.Ed.2d 431 (1978) . . . . . . . . . . . . . . . . . . . 3, 19
Haines v. Kerner,
404 U.S. 519 (1972). . . . . . . . . . . . . . . . . . . passim

vii
Klapprott v. United States,
335 U.S. 601 (1949). . . . . . . . . . . . . . . . . . . . . . . 17
Mylan Labs, Inc. v. Matkari,
7 F.3d 1130 (4th Cir. 1993). . . . . . . . . . . . . . . . . . 8
National Org. for Women v. Operation Rescue,
47 F.3d 667 (4th. Cir. 1995) . . . . . . . . . . . . . . . . 17
Price & Pierce Intern. Inc. v. Spicers Intern.
Paper Sales, Inc., 1985 WL 1985
(S.D.N.Y. June 28, 1985) . . . . . . . . . . . . . . . . . . 21
United States v. Liggins,
155 F. Supp.3d 665 (N.D. Miss. 2016) . . . . . . . . 20
Werner v. Carbo,
731 F.2d 204 (4th Cir. 1984). . . . . . . . . . . . . . . . 19
Williams v. Wahner,
731 F.3d 731 (7th Cir. 2013). . . . . . . . . . . . . . . . 21
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
FED. R. CIV. P. 8(f) . . . . . . . . . . . . . . . . . . . . . . . . . . 18
FED. R. CIV. P. 60(b)(3). . . . . . . . . . . . . . . . . . . passim
FED. R. CIV. P. 60(c) . . . . . . . . . . . . . . . . . . . . . . . . . 19
OTHER AUTHORITIES
Richard A. Posner, Reforming The Federal
Judiciary (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . 2

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Ho Won Jeong respectfully petitions this
Court for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Fourth
Circuit in this case.
OPINIONS BELOW
The Fourth Circuit’s opinion is unpublished but
reproduced at App. at 1-4. Its order denying panel
rehearing and rehearing en banc is unreported but
reproduced at App. 10-11. The District Court’s order
granting Appellees’ motion to dismiss Jeong’s
Complaint is unreported but reproduced at App. at 8-9.
The District Court’s order denying Jeong’s Rule 60(b)
motion regarding its earlier dismissal decision is
unreported but reproduced at App. at 5-7.
JURISDICTION
The Fourth Circuit denied Jeong’s petition for panel
rehearing and rehearing en banc on May 11, 2020. App.
at 10. This Petition is timely filed within 1501 days of
this denial, and this Court has jurisdiction under 28
U.S.C. § 1254(1).
RULE OF CIVIL PROCEDURE INVOLVED
At all relevant times herein, Federal Rule of Civil
Procedure 60(b)(3) has provided:
On motion and just terms, the court may relieve
a party or its legal representative from a final
1

This time period is the extended period set by this Court due to
COVID-19.

2
judgment, order, or proceeding for the following
reasons:
...
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by
an opposing party;
...
FED. R. CIV. P. 60(b)(3).
INTRODUCTION
The plight of a pro se litigant in federal court “is not
an easy one.” Gee v. Pacheco, 495 Fed.Appx 942, 944
(10th Cir. Aug. 31, 2012). Usually people who are
“ignorant of the subtleties of law,”2 such litigants
“present district judges and magistrates with a special
dilemma” because theirs is the “the work of an
untutored hand.” Beaudett v. City of Hampton, 775
F.2d 1274, 1277 (4th Cir. 1985). Because of these
unique challenges, this Court, in cases such as Haines
v. Kerner, 404 U.S. 519, 521 (1972) and Erickson v.
Pardus, 551 U.S. 89, 94 (2007), has required the liberal
interpretation of pro se pleadings and effectively said
that pro se litigants should not be tripped up by
nuances that could easily be explained and/or resolved
if the litigant was made aware of the trap he or she
was walking into.
The Fourth Circuit has provided a succinct and
instructive explanation of how federal courts should
handle pro se lawsuits. Noting that in the “great run

2

Richard A. Posner, Reforming The Federal Judiciary, 185 (2017)

3
of pro se cases, the issues are faintly articulated and
often only dimly perceived,” the Court held that
There is, therefore, a greater burden and a
correlative greater responsibility upon the
district court to insure that constitutional
deprivations are redressed and that justice
is done. So, although the Court of Appeals
cannot mean that it expects the district courts to
assume the role of advocate for the pro se
plaintiff, . . . the district court must examine the
pro se complaint to see whether the facts
alleged, or the set of facts which the plaintiff
might be able to prove, could very well provide a
basis for recovery under any of the civil rights
acts or heads of jurisdiction in the federal
arsenal for redress of constitutional
deprivations.
Gordon v. Leeke, 574 F.2d 1147, 1151 (4th Cir.), cert.
denied, 439 U.S. 970, 99 S.Ct. 464, 58 L.Ed.2d 431
(1978) (emphasis added).
The district court below failed in its duty to be
solicitous to pro se litigants and, in doing so, acted
contrary to this Court’s precedents Haines and
Erickson. As explained herein, all the district court
had to do to flesh out the alleged untimeliness of
Jeong’s pro se Rule 60(b)(3) motion was hold oral
argument and ask him about the issue. Indeed, the
district court had initially scheduled oral argument,
seemingly to do exactly that. However, the district
court canceled the oral argument and then issued an
opinion that not only faulted Jeong for failing to file a
timely Rule 60 motion, but also for not providing an

4
explanation for the untimeliness. This is exactly the
type of whipsaw that Haines and Erickson were
designed to avoid.
While no one is saying that federal judges should
become advocates for self-represented litigants, when
basic a issue – such as timeliness – could be fully
addressed by a court by simply asking the pro se party
why he waited eleven months to file his motion (which,
as he explained in his appellate papers below, related
to stress, health issues, and the difficulty of trying to
find counsel), it is incumbent upon the federal judiciary
to ensure that a litigant is able to fairly advance his
cause on a substantive level. The district court failed
to ensure such fairness; that failure was an abuse of
discretion; and the Fourth Circuit failed to be faithful
to the rule of law for pro se litigants which was
intended to prevent such lack of fairness.
STATEMENT OF THE CASE
I. Factual Background Of Jeong I
A. Jeong’s Longstanding Tenure at GMU
Up until July 31, 2017, when he was terminated,
Jeong worked as a professor at George Mason
University (“GMU”). JA7.3 Prior to then, Jeong had
been at GMU for twenty-one years, the last sixteen as
a tenured professor in the University’s School of
Conflict Analysis Resolution (“S-CAR”). Id. During that
time, he rose steadily and successfully through the
ranks – beginning as a professor in 1996, being
promoted to tenured associate professor in 2001, and
3

“JA” refers to the Joint Appendix filed in the Fourth Circuit.

5
finally being promoted to tenured professor in 2006.
Id. at 7-8.
B. Post-Tenure Review And Jeong’s Grievance
Of Same
In 2014 and 2015 respectively, appellee Kevin
Avruch, the Dean of the S-CAR and Jeong’s first-line
supervisor, issued Jeong two performance evaluations
that Jeong believed were discriminatory.
JA8.
Appellee David Wu, GMU’s Provost, then initiated a
post-tenure review of Jeong’s performance in February
2016. Id.
In response, Jeong, also in February 2016, filed a
complaint with GMU’s University Faculty Grievance
Committee, asserting that Avruch’s actions against
him were unjustified and harmed his career at GMU.
Id.
Two months later, the GMU Committee
unanimously found in favor of Jeong. Its report
concluded that:
Prof. Jeong was aggrieved by the over-reaction
of Dean Avruch who then initiated formal
unsatisfactory performance reviews that have
resulted in a post-tenure review and the
potential loss of employment for Prof. Jeong.
Dean Avruch’s actions have caused harm to the
reputation of Prof. Jeong and have endangered
his standing as an employee.
JA8 (emphasis added).
Soon thereafter, Jeong filed an EEOC Complaint,
which the EEOC dismissed on or about May 13, 2016.
Id.

6
Approximately two weeks later, GMU held a posttenure review meeting with Jeong. Id. The post-tenure
committee was supposed to produce a report soon after
the meeting. Id.
After more than month elapsed, however, GMU
human resources personnel questioned the long delay
in issuing the report and asked if an end date or
expectations should be established. Id. at 8-9.
C. The Post-Tenure Review Committee
Recommends Either Reassignment Or
Sanctions Against Jeong, But NOT
Termination
On August 5, 20164, the post-tenure review
committee finally produced its report. It recommended
that Provost Wu choose one of two options for Jeong:
(i) reassignment of his position or (ii) the imposition of
sanctions. Id. at 9. It did not recommend termination.
D. Jeong Then Files Suit Against GMU
(Jeong I) And The Post-Tenure Review
Committee Changes Its Recommendation
From “Sanctions” To “Termination”
In the meantime, on August 13, 2016, Jeong filed
suit against GMU in the U.S. District Court for the
Eastern District of Virginia. Id. The case, Jeong v.
George Mason University, 1:16cv01027 (Jeong I),
4

Jeong’s Complaint below identifies “August 2, 2016” as the date
of the report. JA8. As the later documents submitted to the Court
by Jeong show, however, that date is incorrect and the report was
actually completed as of August 5, 2016. See JA266-267. In the
interests of accuracy, for purposes of this appeal, Jeong uses
August 5, 2016 as the operative date of the report.

7
alleged race (Asian) and national origin (South Korean)
discrimination, as well as retaliation in violation of
both Title VII and the Americans with Disabilities Act.
Id.
On October 3, 2016, GMU’s in-house counsel filed a
motion to dismiss under Rule 12(b)(1) and (b)(6). Id. In
response, Jeong filed an Amended Complaint,
rendering the initial motion to dismiss moot. Id. The
Amended Complaint included allegations that Dean
Avruch had publicly belittled Jeong and imposed
discipline against him while failing to impose discipline
on similarly-situated white faculty. Id.
GMU’s in-house counsel again filed a motion to
dismiss, this time on November 7, 2016. Id. at 10.
Jeong responded by filing an opposition memorandum
on November 21, 2016. Id. The memorandum, like the
Amended Complaint, specifically alleged that Dean
Avruch was publicly belittling Jeong and imposing
discipline against him even though he was not
imposing discipline against similarly-situated white
faculty. Id.
The very next day, on November 22, 2016, the
post-tenure committee replaced its original August 5,
2016 report with a new report that substituted the
word “termination” for “sanctions.” Id.
E. Jeong I Is Dismissed And GMU Fires Jeong
Just Days Later
On January 26, 2017, the District Court granted
GMU’s motion to dismiss and dismissed Jeong I. Id.
Three days later, Provost Wu sent Jeong a notice of
termination, effective July 31, 2017. Id. Jeong

8
appealed to GMU President Angel Cabrera (the third
appellee in this case), but this appeal was rejected. In
his letter rejecting Jeong’s appeal, President Cabrera
made a point to say that “In addition, I cannot
disregard the recent opinion issued by the local federal
court dismissing the discrimination lawsuit you filed
against the University . . . In dismissing the lawsuit,
the court found your claims to be without any legal
merit.” Id.
II. Relevant Procedural History: Jeong II
A. Appellees Move To Dismiss Jeong II And As
Part Of Their Dismissal Efforts, They
Greatly Minimize The August 5, 2016 PostTenure Committee Report
Based on the above5, Jeong, represented by counsel,
filed the underlying Complaint here – Jeong II. JA2, 613. The crux of Jeong’s new claim was that the
appellees, all of whom are GMU personnel, unlawfully
retaliated against him in violation of Section 1983 by
having his post-tenure review recommendation
changed from “sanction” to “termination” and then
effecting his termination as a direct result of his filing
his lawsuit in Jeong I. Id at 10-11.
As in Jeong I, GMU’s in-house counsel handled the
case.
In doing so, they moved to dismiss the
Complaint, JA11-14, and submitted five exhibits to the
Court to support dismissal, including the November 22,
5

Because this matter involves an initial ruling on a motion to
dismiss, the facts are taken from the Complaint and stated in the
light most favorable to Jeong. See Mylan Labs, Inc. v. Matkari, 7
F.3d 1130, 1134 (4th Cir. 1993).

9
2016 post-tenure review report. JA32-34. According to
GMU’s in-house counsel, the report was affirmative
evidence to show that his termination was justified. Id.
at 25-30. They thus asserted that Jeong could not
plausibly show that his protected activity was the “but
for” cause of his termination. Id. As they stated at the
end of Defendants’ opening memorandum in support of
dismissal: “[t]here are no allegations that could
possibly establish the necessary ‘but for’ causal
connection between the protected activity and
termination.” Id. at 30.
On July 13, 2018, the district court held a hearing
on Appellees’ motion. At that time, the court raised
concerns about the August 2, 2016 report of the posttenure review committee. JA 99. Appellees’ counsel,
however, poo-pooed it and dismissed it out of hand as
merely a “draft.” Counsel stated:
Frankly, we’re not sure what he’s talking about
there. We do know that there was a draft that
was worked on, but it was not attached to any of
the exhibits because there was no – there was
no initial report that was then changed.
JA100 (emphasis added). Counsel further stated: “The
final report … which we have attached to our motion,
is the only report of the committee.” Id. (emphasis
added).
In response, Jeong’s counsel disputed the validity of
the final November 22, 2016 report and turned back to
the August 2, 2016 post-tenure committee report.
JA113. He emphasized that the initial report did not
recommend termination, but the “final” report did and

10
he noted that the only intervening events that occurred
between those two reports were the filing of Jeong’s
lawsuit in August 2016 and the filing of Jeong’s
opposition memorandum just a day before the
committee recommendation changed. JA114. He
stated:
. . . for things that predated protected activity
that were not terminable, but suddenly become
terminate activity after you engage in protected
activity, that the defendant has to explain why
it suddenly became terminable after a protected
activity when it was not previously.
Id. (emphasis added). He explained that the proper
inference from the post-tenure committee’s sudden
change of heart is that one or more of the three
appellees read Jeong’s recently filed legal documents
and influenced the committee to make a harsher
recommendation. JA117-118.
In rebuttal, appellees’ counsel again dismissed the
notion that there had been any kind of final posttenure committee report in August and that it was, at
best, a draft. Counsel stated:
I just want to address a couple of fact – well, I
guess not factual things. But first of all,
regarding this August draft – so it was not – the
reason why Dr. Jeong has this is because it was
produced to him during discovery in the first
litigation. It was not a final decision.
And so, I just want Your Honor to understand.
I understand we’re getting beyond the
complaint, but I don’t believe counsel is correct

11
that it was provided to him as a final result of
the committee because it wasn’t. It was a draft
that was done, and it was produced during the
first litigation.
JA127 (emphasis added).
B. The District Court Dismisses Jeong II, In
Part, Based On The Alleged Lack Of Value
Of The August 5, 2016 Report
Ultimately, at the conclusion of oral argument, the
district court dismissed Jeong’s lawsuit. JA139.
Regarding the August 2016 report, the district court
noted that “we don’t have the August report before the
Court,” JA135, and then explained that he did not
believe that Jeong had alleged facts sufficient to make
a plausible claim of retaliation that connected the filing
of his lawsuit in August 2016 or his Opposition
Memorandum on November 21, 2016 and the changing
of the post-tenure committee report on November 22,
2016. JA136.
C. Jeong, Now Pro Se, Files His Rule 60(b)(3)
Motion And Submits Documentation That
Shows That The August 5, 2016 Report Was
Not A Mere Draft But Instead Was A Report
That Was Intentionally Changed After
Jeong Filed Jeong I.
Eleven months and thirteen days after dismissal,
Jeong returned to the District Court and filed a
“Motion To Reopen, Reconsider and Reverse Grant of
Defendants’ Motion to Dismiss” pursuant to FED. R.
CIV. P. 60(b)(3).
JA140-142. Although he had
previously been represented by counsel, Jeong now

12
appeared pro se. He even certified in writing, under
penalty of perjury, that no attorney had prepared or
assisted in the preparation of his submissions. JA143.
Jeong’s motion was premised on his assertion that
GMU’s attorneys had made misrepresentations and
false statements to the Court at the motion to dismiss
stage and that they had thereby “hinder[ed] the truthseeking function of the judicial system.” JA140. In
particular, Jeong claimed that GMU’s attorneys had
falsely asserted that the August 5, 2016 post-tenure
report was simply a draft and had falsely stated that it
was not a final document. JA149-154.
In support of his assertion that the August 5, 2016
report was not simply a draft, Jeong submitted
numerous items of documentary evidence, to wit:
• An August 1, 2016 e-mail from the Chair of
the committee stating: “Attached is a first
draft of the report to the Provost. It does
not have a recommendation yet … It
seems that the Provost cannot terminate
Jeong unless we recommend it.” JA255
(emphasis added);
• An e-mail the next day from another
committee member replying to the first email and saying: “I have suggested a few
changes and have drafted a possible last
paragraph.
Basically I argue that
Professor Jeong did not perform his
duties and the Provost can sanction
him.” JA258 (emphasis added);

13
• A third e-mail from the third committee
member stating: “Bob, why don’t you take a
look at this version, then send it around one
more time for final review and we can
send it on to the Provost.” JA261
(emphasis added);
• A fourth e-mail eleven minutes later, from
the second member asking him to “change
[his] first name to James, since this is a
formal memo.” JA264;
• A fifth e-mail from the Chair, affirming
everyone’s agreement regarding the memo
and referencing GMU’s in-house legal
department, saying “I am still waiting for
legal to decide but I may bring it by on
Monday just in case.” JA271 (emphasis
added); and
• The final version of the report, dated August
5, 2016, that was circulated. JA266-267.
In other words, the documentary evidence submitted by
Jeong painted a clear picture of a process that had
reached fruition and conclusion as of August 5, 2016 –
before Jeong filed his lawsuit on August 13, 2016.
Jeong also submitted evidence that showed the
dubious conduct vis-à-vis the post-tenure report that
occurred after he filed his lawsuit. Specifically, in
documents he provided to the district court, Jeong
showed that:
• On August 20, 2016, almost ten days after
Jeong filed suit, one of the committee

14
members circulated a new outline “of what
we might say in a revised and expanded
memo to the Provost”; The e-mail which
attached the outline also ominously stated: “I
will be in next week and we can talk about
our strategy and the conflicting
instructions we seem to be getting.” JA271
(emphasis added); see also JA274 (the
outline); and
• On August 22, 2016, the committee put
together a new report that was virtually
identical to the report that was ultimately
issued on November 22, 2016. In other
words, the word “sanctions” was specifically
changed to “termination” almost immediately
after Jeong filed his lawsuit and, by
inference, based on the “conflicting
instructions” that were being provided to the
committee. JA276-277.
This evidence additionally showed that the report itself
had been largely completed by late August 2016, but
then conspicuously sat idly by for months for no good
reason. Only after Jeong filed his opposition to GMU’s
motion to dismiss the Amended Complaint in Jeong I,
did GMU then suddenly takes action.

15
D. Without A Hearing And Without Ever
Hearing From Jeong In Person, The
District Court Denied Jeong’s Rule 60
Motion As Untimely
Initially, the district court scheduled a hearing on
Jeong’s Rule 60 motion. JA2. Just two days before the
hearing, however, the district court canceled it and
denied Jeong’s motion on the grounds that it was
untimely. JA434-437. Without inquiring as to what
kinds of facts and circumstances were behind Jeong’s
decision to wait almost a year before filing his motions,
court simply explained as follows:
Here, Plaintiff moved for reconsideration under
Rule 60(b)(6) on June 26, 2019, eleven months
and thirteen days after the Order was entered,
within the one-year time limit imposed by Rule
60(c) but far longer than the three to four
months the Fourth Circuit has held is
unreasonable absent a valid explanation.
Plaintiff has offered no explanation whatsoever
for this delay. Furthermore, he does not identify
any new information that recently became
known to him or any other basis for
reconsideration that was unknown to him when
the Order was entered in July 2018. Absent
such an explanation, Plaintiff’s motion is
untimely.
JA436.

16
E. Jeong Appeals The District Court’s Denial
Of His Rule 60(b)(3) Motion, But The
Fourth Circuit Affirms The Denial
Jeong appealed the district court’s decision, but the
Fourth Circuit affirmed it. The Court of Appeals
explained:
Appellees placed Jeong on notice that he needed
to show that his motion was filed within a
reasonable time, and Jeong simply failed to
address the issue in any meaningful way. Given
that Jeong had the opportunity to respond to a
clearly delineated issue and that he neither did
so nor requested further time or assistance, we
find that the district court did not abuse its
discretion in denying the Rule 60(b) motion
without further inquiry or a hearing.
Jeong v. Cabrera, 2020 WL 1487697at *1 (4th Cir. Mar.
25, 2020).
As well, while it recognized that Jeong filed his Rule
60 motion pro se, the Fourth Circuit stated that the
solicitude afforded to pro se litigants “does not
transform a district court into an advocate for the pro
se litigant.” Id. As such, it rejected Jeong’s position
that the district court, in analyzing his pro se Rule 60
motion, “should have sought further information [from
Jeong] or held a hearing [on the Rule 60 motion]”
before it ruled on the motion. Id.
Believing this latter issue – which is dispositive of
the overall analysis for the Rule 60 motion itself – is at
odds with this Court’s precedents, Jeong now petitions
this Court for certiorari.

17
REASONS FOR GRANTING THE WRIT
I. This Court Should Grant Certiorari Because
The Decisions Below Conflict With This
Court’s Precedents In Haines And Erickson
Fed. R. Civ. P. 60(b) “invest[s] federal courts with
the power in certain restricted circumstances to ‘vacate
judgments whenever such action is appropriate to
accomplish justice.’” Compton v. Alton S.S. Co., Inc.,
608 F.2d 96, 101-102 (4th Cir. 1979) (quoting Klapprott
v. United States, 335 U.S. 601, 614-15 (1949)). This
power “rests within the district court’s equitable
powers,” National Org. for Women v. Operation Rescue,
47 F.3d 667, 669 (4th. Cir. 1995), and requires a court
to engage in “the delicate balancing of ‘the sanctity of
final judgments . . . and the incessant command of the
court’s conscience that justice be done in light of all the
facts.’” Compton, 608 F.2d at 102 (quoting Bankers
Mortgage Co. v. U.S., 423 F.2d 73, 77 (5th Cir. 1970)).
Equitable considerations are particularly important
in balancing these interests.
As such, “any
considerations of the need ‘to expedite cases, to fully
utilize the court’s time, to reduce overcrowded
calendars and to establish finality of judgments * * *
should never be used to thwart the objectives of the
blind goddess’ of justice itself.” Compton, 608 F.2d at
102 (quoting Boughner v. Secretary of Health, Ed. &
Welf., U.S., 572 F.2d 976, 978-79 (3d Cir. 1978)).

18
A. This Court’s Precedents Showing THE
Federal Judicial System’s Longstanding
Latitude When Dealing With Pro Se Litigants
Along the same lines as the equitable considerations
underlying Rule 60 motions, federal courts are required
to accord pro se litigants latitude when they appear
before them. Haines v. Kerner, 404 U.S. 519, 520–21
(1972) (per curiam). A pro se complaint, for example,
“is to be liberally construed, ... and ... must be held to
less stringent standards than formal pleadings drafted
by lawyers.” Erickson v. Pardus, 551 U.S. 89, 94, (2007)
(internal quotation marks and citations omitted). And
indeed, this Court has recognized that pro se “litigants
cannot . . . be expected to frame legal issues with the
clarity and precision ideally evidence in the work of
those trained in law.” Beaudett v. City of Hampton, 775
F.2d 1274, 1276 (4th Cir. 1985). Cf. FED. R. CIV. P. 8(f)
(“All pleadings shall be so construed as to do
substantial justice”).
A litigant’s pro se status is particularly important
where, as here, a plaintiff has raised a federal civil
rights case. As the Fourth Circuit has instructively
explained:
Th[e] solicitude for a civil rights plaintiff with
counsel must be heightened when a civil rights
plaintiff appears pro se. In the great run of pro
se cases, the issues are faintly articulated and
often only dimly perceived. There is, therefore,
a greater burden and a correlative greater
responsibility upon the district court to
insure that constitutional deprivations are
redressed and that justice is done. So,

19
although the Court of Appeals cannot mean that
it expects the district courts to assume the role
of advocate for the pro se plaintiff, . . . the
district court must examine the pro se complaint
to see whether the facts alleged, or the set of
facts which the plaintiff might be able to prove,
could very well provide a basis for recovery
under any of the civil rights acts or heads of
jurisdiction in the federal arsenal for redress of
constitutional deprivations
Gordon, 574 F.2d at 1151.
B. The District Court Failed To Abide By This
Court’s Precedents in Haines And Erickson,
And Thus Abused Its Discretion When,
Without A Hearing, It Denied Jeong’s Pro
Se Rule 60(b)(3) Motion On The Ground Of
Untimeliness
Here, the district court below did not engage in any
substantive analysis of the merits of Jeong’s Rule
60(b)(3) motion. Instead, the sole basis upon which it
denied the motion was that it was untimely. JA436. It
concluded that although the motion met the one-year
filing deadline prescribed by Rule 60(c), it was
nevertheless not filed “within a reasonable time,” as is
also required.6 Id. at 435-436. See Werner v. Carbo, 731
F.2d 204, 207 n.1 (4th Cir. 1984). This ruling is an
abuse of discretion and is contrary to this Court’s
precedents in Haines and Erickson.
6

In relevant part, Rule 60(c) states that “[a] motion under Rule
60(b) must be made within a reasonable time—and for reasons (1),
(2), and (3) no more than a year after the entry of the judgment or
order or the date of the proceeding.” FED. R. CIV. P. 60(c).

20
The abuse of discretion committed by the district
court is its cancelling of the hearing it had set to
address the Rule 60 motion. If the hearing had taken
place, Jeong would obviously have appeared before the
court in person and would have been able to fully
explain the many reasons – including the difficulty in
trying to find an attorney to help him and the
emotional distress caused by court’s initial dismissal
ruling7 -- that justified his delay. At that point, the
district court would have had a proper record upon
which to examine this key. While casting no aspersions
on the district court, its decision to abruptly cancel the
hearing deprived Jeong of a critical opportunity to
amplify and explain the grounds for his motion.
Jeong addressed the timeliness issue only as to the
one-year deadline for Rule 60 motions, not the
“reasonable time” component. He clearly thought he
had addressed the issue appropriately. However, in
truth, he had not, because, lacking legal training,
Jeong did not realize the Rule 60 timeliness issue
involved a two-prong inquiry. See, e.g., JA431. As such,
an astute and appropriately solicitous District Court
should have immediately recognized that Jeong did not
fully grasp the timeliness questions related to his
motion and that he needed an opportunity to more fully
address the issue. As is well settled, “[o]ral argument
gives parties a chance to flesh out their existing
theories of the case.” United States v. Liggins, 155
F. Supp.3d 665, 668 (N.D. Miss. 2016).
7

Although these assertions are beyond the record of this case, they
are proffered to show that Jeong did indeed have colorable and
valid reasons behind why he waited as long as he did to file his
Rule 60 motion.

21
Federal courts routinely set motions for oral
argument in lawyered cases when they have specific
concerns about the issues before them. See, e.g., Estate
of Grieco v. National Medical Consultants, P.C., 2018
WL 4562405 at *2 (D.N.J. Sept. 24, 2018); (“The Court
asked Mr. Brazza probing questions at oral argument
to flesh out the record on this issue.”) (emphasis
added); Price & Pierce Intern. Inc. v. Spicers Intern.
Paper Sales, Inc., 1985 WL 1985 at *2 (S.D.N.Y. June
28, 1985) (“In a further effort to flesh out the issue, the
Court heard oral argument . . .”).
Oral arguments have even greater significance
where, as here, a litigant is acting pro se. As cogently
observed by Judge Posner, when analyzing pro se
pleadings, “hearings can be a useful means of ‘trying to
determine what the plaintiff is alleging.’” Beal v.
Foster, 803 F.3d 356, 359 (7th Cir. 2015) (quoting
Williams v. Wahner, 731 F.3d 731, 734 (7th Cir. 2013)).
And, indeed, failing to provide such a litigant a hearing
can be reversible error. Id.
Here, the district court abused its discretion in
analyzing the timeliness issue when, knowing it had a
pro se litigant before it who did not fully grasp the
nature of the timeliness issue upon which it was set to
rule, chose to preclude the necessary fleshing out of the
record on that issue. The Fourth Circuit’s affirmance
blesses this abuse of discretion and in doing so, goes
against the rules of law for pro se litigants. Indeed, the
Fourth Circuit’s timeliness holding wrongly
presupposes that Jeong was actually given a fair
opportunity to articulate a reason for his delay and
have the District Court determine its validity. That

22
never happened here, and that is why the denial of the
motion on this ground was an abuse of discretion and
why both that decision and the Fourth Circuit’s
affirmance are contrary to this Court’s precedents in
Haines and Erickson.
II. This Case Is An Ideal Vehicle To Resolve The
Question Presented
This case is an ideal vehicle to resolve the question
presented here involving standards for pro se litigants.
The question has been squarely presented at all levels
of appeal, and, indeed, Jeong specifically asked the
Fourth Circuit to examine the issue in a petition for en
banc review.
CONCLUSION
The petition for certiorari should be granted.
Respectfully submitted,
RICHARD F. HAWKINS, III
Counsel of Record
THE HAWKINS LAW FIRM, PC
2222 Monument Ave.
Richmond, VA 23220
(804) 308-3040 (telephone)
(804) 308-3132 (fax)
rhawkins@thehawkinslawfirm.net
Counsel for Petitioner

